 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




 BARRIO COMPREHENSIVE FAMILY
HEALTH CARE CENTER, INC., DID NOT
    ALWAYS FOLLOW FEDERAL
         REGULATIONS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                       Kay L. Daly
                                                Assistant Inspector General

                                                        August 2013
                                                       A-06-11-00067
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

The Health Center Program provides grants to nonprofit private and public entities that serve
designated medically underserved populations and areas and vulnerable populations of migrant
and seasonal farm workers, homeless individuals, and public housing residents. These grants are
commonly referred to as “section 330 grants.”

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Health Information Technology Implementation
(HIT), Capital Improvement Program (CIP), New Access Point (NAP), and Increased Demand
for Services (IDS) grants.

Barrio Comprehensive Family Health Care Center, Inc. (Barrio), is a nonprofit organization that
operates community health centers in San Antonio, Texas, and the surrounding area. Barrio
provides medical, dental, and mental health services and is funded primarily by patient service
revenues and Federal grants. During fiscal years 2010 and 2011 (February 1, 2009, through
January 31, 2011), Barrio received approximately $9.8 million (Federal share) in section 330
grant funding to supplement its health center operations. For project periods ranging from
March 2009 through May 2012, HRSA awarded Barrio funding for five Recovery Act grants
totaling $7,518,980: $4,024,697 under two HIT grants, $1,447,420 under a CIP grant,
$1,300,000 under an NAP grant, and $746,863 under an IDS grant.

OBJECTIVES

Our objectives were to determine whether (1) the costs that Barrio claimed were allowable and
(2) Barrio had adequate controls over its financial management system.

SUMMARY OF FINDINGS

Of the $16,020,116 that we reviewed, $3,417,461 was allowable. We could not determine
whether salary and fringe benefit costs totaling $12,543,068 that Barrio claimed were allowable
because Barrio did not maintain personnel activity reports for employees who worked on its
section 330, HIT, NAP, and IDS grants and because the accounting records for the section 330

                                                i
and NAP grants did not separate expenditures related to the Federal grants from those related to
other funding sources. Barrio recorded additional potentially unallowable costs of $50,240 for
compensation increases and $9,347 for interest expense.

Barrio did not have adequate controls over its financial management system. Specifically, Barrio
did not draw down funds based on the cash needs for each project and did not prepare and
complete bank statement reconciliations in a timely manner. Also, Barrio did not have adequate
procurement procedures to ensure that it obtained reasonable pricing when procuring goods and
services.

RECOMMENDATIONS

We recommend that HRSA require Barrio to:

   •   refund $12,543,068 to the Federal Government for salary and salary-related expenses
       ($9,832,854 of the section 330 grant, $1,290,653 of the NAP grant, $735,382 of the IDS
       grant, and $684,179 of the two HIT grants), or work with Barrio to determine whether
       any of the $12,543,068 was allowable;

   •   refund $50,240 to the Federal Government for salary increases charged to one of the HIT
       grants, or work with Barrio to determine whether the increases were reasonable;

   •   refund $9,347 of the NAP grant to the Federal Government for interest expense related to
       a capital lease, or work with Barrio to determine whether any of the $9,347 was
       allowable;

   •   develop and implement procedures to maintain personnel activity reports for each
       employee who works on Federal awards;

   •   ensure that its financial system provides accurate, current, and complete disclosure of
       financial results, identifies the source and application of funds for HHS-sponsored
       activities, and accounts for grant funds separately from all other funds;

   •   develop and implement procedures requiring analysis of lease and purchase alternatives;

   •   develop and implement procedures to ensure that requests for cash advances are limited
       to the amounts needed to carry out approved projects;

   •   follow its policies to ensure that bank statement reconciliations are prepared and
       approved monthly; and

   •   develop and implement procedures to make and document a cost analysis for each
       procurement action.




                                                ii
BARRIO COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Barrio disagreed or partially disagreed with our
recommendations. Our analysis of Barrio’s comments did not change our findings, but in one
case we revised a recommendation to have HRSA work with Barrio to determine whether salary
increases were reasonable. See the report body for a detailed summary of Barrio’s comments
and our response.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations.




                                            iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION........................................................................................................................ 1

          BACKGROUND ............................................................................................................... 1
              Health Center Program .......................................................................................... 1
              American Recovery and Reinvestment Act of 2009.............................................. 1
              Barrio Comprehensive Family Health Care Center, Inc. ....................................... 1
              Federal Requirements for Grantees ....................................................................... 2

          OBJECTIVES, SCOPE, AND METHODOLOGY ........................................................... 2
               Objectives .............................................................................................................. 2
               Scope ...................................................................................................................... 2
               Methodology .......................................................................................................... 3

FINDINGS AND RECOMMENDATIONS .............................................................................. 3

          POTENTIALLY UNALLOWABLE GRANT COSTS .................................................... 4
               Insufficient Documentation of Salaries and Salary-Related Costs ........................ 4
               Inadequate Financial Management System ........................................................... 4
               Insufficient Documentation To Justify Salary Increases ....................................... 5
               Interest Paid for Furniture Lease Lacked the Required Cost Analysis .................. 6

          CASH MANAGEMENT PROCEDURES WERE INADEQUATE ................................. 7
               Drawdown of Recovery Act Funds Not Based on Cash Requirements................. 7
               Preparation and Review of Bank Statement Reconciliations Not Timely ............. 7

          PROCUREMENT PROCEDURES WERE INADEQUATE ........................................... 7

          RECOMMENDATIONS ................................................................................................... 8

          BARRIO COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE ....... 9
               Insufficient Documentation of Salaries and Salary-Related Costs ........................ 9
               Inadequate Financial Management System ........................................................... 9
               Insufficient Documentation To Justify Salary Increases ...................................... 10
               Interest Paid for Furniture Lease Lacked the Required Cost Analysis ................. 11
               Drawdown of Recovery Act Funds Not Based on Cash Requirements................ 12
               Preparation and Review of Bank Statement Reconciliations Not Timely ............ 12
               Procurement Procedures Were Inadequate ........................................................... 13

          HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS.......... 13




                                                                     iv
APPENDIXES

    A: GRANT AMOUNTS AND AMOUNTS REVIEWED, ALLOWABLE, AND
       POTENTIALLY UNALLOWABLE

    B: BARRIO COMMENTS

    C: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                               v
                                              INTRODUCTION

BACKGROUND

Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program. The Health Center Program provides grants to
nonprofit private or public entities that serve designated medically underserved populations and
areas, as well as vulnerable populations of migrant and seasonal farm workers, the homeless, and
residents of public housing. These grants are commonly referred to as “section 330 grants.”

American Recovery and Reinvestment Act of 2009

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Health Information Technology Implementation
(HIT), Capital Improvement Program (CIP), New Access Point (NAP), and Increased Demand
for Services (IDS) grants.

Barrio Comprehensive Family Health Care Center, Inc.

Barrio Comprehensive Family Health Care Center, Inc. (Barrio), is a nonprofit organization that
operates community health centers in San Antonio, Texas, and the surrounding area. 1 Barrio
provides medical, dental, and mental health services and is funded primarily by patient service
revenues and Federal grants.

During Barrio’s fiscal years (FYs) 2010 and 2011, HRSA awarded Barrio $9,832,854 in
section 330 grant funds to support its health center operations. In addition, for project periods
ranging from March 2009 through May 2012, HRSA awarded Barrio Federal funding for five
Recovery Act grants totaling $7,518,980, which included:

    •   two HIT grants for $4,024,697 to purchase and expand an electronic health record system
        for the Southwest Texas Network, Inc.; 2

1
 Barrio’s corporate name is Barrio Comprehensive Family Health Care Center, Inc., though it does business as
Communicare Health Centers.
2
 The Southwest Texas Network, Inc., is a health center controlled network that consists of Barrio and four other
Federally qualified health centers that share resources to improve the delivery of services.

                                                         1
    •   a CIP grant for $1,447,420 to construct a facility in Kyle, Texas;

    •   an NAP grant for $1,300,000 to open a new clinic in San Marcos, Texas, and for new
        dental operations in Kyle, Texas; and

    •   an IDS grant for $746,863 to increase staffing and extend existing services. 3

Federal Requirements for Grantees

Title 45, part 74, of the Code of Federal Regulations establishes uniform administrative
requirements governing HHS grants and agreements awarded to nonprofit organizations. As a
nonprofit organization in receipt of Federal funds, Barrio must comply with Federal cost
principles in 2 CFR part 230, Cost Principles for Non-Profit Organizations (formerly Office of
Management and Budget Circular A-122), incorporated by reference at 45 CFR § 74.27(a).
These cost principles require that grant expenditures submitted for Federal reimbursement be
reasonable, allocable, and otherwise allowable. The HHS awarding agency may include
additional requirements that are considered necessary to attain the award’s objectives.

To help ensure that Federal requirements are met, grantees must maintain financial management
systems in accordance with 45 CFR § 74.21. These systems must provide for accurate, current, and
complete disclosure of the financial results of each HHS-sponsored project or program (45 CFR
§ 74.21(b)(1)) and must ensure that accounting records are supported by source documentation
(45 CFR § 74.21(b)(7)). Grantees also must have written procedures for determining the
reasonableness, allocability, and allowability of expenditures in accordance with applicable Federal
cost principles and the terms and conditions of the award (45 CFR § 74.21(b)(6)).

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether (1) the costs that Barrio claimed were allowable and
(2) Barrio had adequate controls over its financial management system.

Scope

We reviewed costs totaling $16,020,116 that Barrio charged to its section 330, HIT, CIP, NAP,
and IDS grants for the period February 1, 2009, through September 30, 2011. We also reviewed
controls in Barrio’s financial management system related to the accounting for funds;
documenting transactions; preparing financial reports; drawing down Federal funds; processing
payroll; recording inventory; reimbursing travel expenses; and purchasing equipment, supplies,
and services. We limited our review to controls that pertained to our objectives.


3
  Barrio’s grant budget periods were as follows: February 1, 2009, through January 31, 2011, for the
section 330 funds; September 1, 2009, through August 31, 2011, and June 1, 2010, through May 31, 2012, for the
HIT funds; June 29, 2009, through June 28, 2011, for the CIP funds; March 1, 2009, through February 28, 2011, for
the NAP funds; and March 27, 2009, through March 26, 2011, for the IDS funds.

                                                        2
We performed our fieldwork at Barrio’s administrative office in San Antonio, Texas.

Methodology

To accomplish our objectives, we:

    •   reviewed relevant Federal laws, regulations, and guidance;

    •   reviewed Barrio’s Recovery Act grant application packages and HRSA’s Notices of
        Grant Award;

    •   interviewed Barrio personnel to gain an understanding of Barrio’s accounting system and
        internal controls;

    •   reviewed Barrio’s independent auditor’s reports and related financial statements for
        FYs 2009, 2010, and 2011;

    •   compared quarterly expenditures with drawdowns for each account that Barrio used for
        Recovery Act grants; 4

    •   reviewed accounting records for the section 330 grant to determine whether the
        accounting system separated expenditures related to the 330 grant from other funding
        sources;

    •   reconciled inventory records to accounting records for Recovery Act purchases;

    •   reviewed expenditures for salaries and related costs, equipment, supplies, space, and
        travel claimed on Barrio’s Recovery Act grants for allowability; and

    •   discussed the results of our audit with Barrio officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                              FINDINGS AND RECOMMENDATIONS

Of the $16,020,116 that we reviewed, $3,417,461 was allowable. We could not determine
whether salary and fringe benefit costs totaling $12,543,068 that Barrio claimed were allowable
because Barrio did not maintain personnel activity reports for employees who worked on its
section 330, HIT, NAP, and IDS grants and because the accounting records for the section 330
and NAP grants did not separate expenditures related to the Federal grants from those related to

4
 For the NAP grant, Barrio did not separately account for Federal and non-Federal expenditures. In our analysis of
drawdowns, we therefore took a conservative approach and included all expenditures in the NAP account.
                                                        3
other funding sources. Barrio recorded additional potentially unallowable costs of $50,240 for
compensation increases and $9,347 for interest expense.

Barrio did not have adequate controls over its financial management system. Specifically, Barrio
did not draw down funds based on the cash needs for each project and did not prepare and
complete bank statement reconciliations in a timely manner. Also, Barrio did not have adequate
procurement procedures to ensure that it obtained reasonable pricing when procuring goods and
services.

POTENTIALLY UNALLOWABLE GRANT COSTS

Insufficient Documentation of Salaries and Salary-Related Costs

Cost principles (2 CFR part 230, Appendix A, § A.2.g) state that costs must be adequately
documented to be allowable under an award. Cost principles (2 CFR part 230, Appendix B,
§§ 8.b and 8.m) also state that for salaries and wages to be allowable for Federal reimbursement,
grantees must maintain personnel activity reports that reflect the distribution of actual activity of
each employee whose compensation is charged, in whole or in part, directly to Federal awards.
These reports must be signed by the employee or a supervisory official having firsthand
knowledge of the employee’s activities, be prepared at least monthly, coincide with one or more
pay periods, and account for the total activity of the employee. Budget estimates are specifically
described as inadequate support for charges to awards (2 CFR part 230, Appendix B,
§ 8.m(2)(a)).

Barrio did not adequately document $12,543,068 in salary and fringe benefit costs that it
recorded in its accounting records: $9,832,854 of the section 330 grant, $1,290,653 of the NAP
grant, $735,382 of the IDS grant, and $684,179 for the two HIT grants. 5 Specifically, the
personnel activity reports did not reflect the actual activity of employees whose salary and fringe
benefit costs were charged to the grants. The timesheets showed neither the grants on which the
employees worked nor the activities performed. Barrio allocated salaries for each grant in
accordance with the percentage of time budgeted for each employee in the grant applications.
Barrio officials stated that they were unaware of the requirement for maintaining personnel
activity reports. As a result, we could not determine whether the $12,543,068 that Barrio
claimed was allowable for Federal reimbursement.

Inadequate Financial Management System

HRSA regulations governing the Health Center Program require that all grant payments be
accounted for separately from all other funds, including funds derived from other grant awards
(42 CFR § 51c.112(a)). To help ensure that Federal requirements are met, grantees must
maintain financial management systems in accordance with 45 CFR § 74.21. These systems
must provide for accurate, current, and complete disclosure of the financial results of each

5
  The amounts shown above for the section 330 and NAP grants are the Federal shares of the awards. We reduced
the amount for the NAP grant by $9,347 of interest expense discussed in the “Interest Paid for Furniture Lease
Lacked the Required Cost Analysis” section. As discussed in the “Inadequate Financial Management System”
section, Barrio’s financial management system did not adequately identify the source and application of these funds.

                                                         4
HHS-sponsored project or program (45 CFR § 74.21(b)(1)) and must ensure that accounting
records are supported by source documentation (45 CFR § 74.21(b)(7)). Grantee records must
adequately identify “the source and application of funds for HHS-sponsored activities,”
including “information pertaining to Federal awards, authorizations, obligations, unobligated
balances, assets, outlays, income and interest” (45 CFR § 74.21(b)(2)).

Barrio’s financial management system did not provide accurate, current, and complete disclosure
of financial results and did not maintain records that identified the source and application of
funds for HHS-sponsored activities, as required by 45 CFR § 74.21(b). Specifically, the
accounting records for the section 330 and NAP grants did not separate expenditures related to
the Federal grants from other funding sources. 6 For example, the total approved budget for
Barrio’s NAP grant award was $3,922,294; however, the Federal share was $1,300,000. For our
review period, Barrio recorded $2,810,539 of expenses in its accounting system for the NAP
grant but did not identify which expenses were funded by the Federal share and by other funding
sources. This occurred because Barrio did not set up its accounting system according to Federal
regulations. As a result, we could not verify that the section 330 grant funds ($9,832,854) and
the NAP grant funds ($1,300,000) were used for allowable expenditures.

Insufficient Documentation To Justify Salary Increases

Cost principles (2 CFR part 230, Appendix B, § 8.d) state that certain conditions require special
consideration and possible limitations in determining costs under Federal awards when amounts
or types of compensation appear unreasonable. Section 8.d(2) states that these conditions
include “[a]ny change in an organization’s compensation policy resulting in a substantial
increase in the organization’s level of compensation, particularly when it was concurrent with an
increase in the ratio of Federal awards to other activities of the organization ....”

Section 8.b states that “the costs of compensation [for personal services] are allowable to the
extent that: (1) Total compensation to individual employees is reasonable for the services
rendered and conforms to the established policy of the organization consistently applied to both
Federal and non-Federal activities; and (2) Charges to awards whether treated as direct or
indirect costs are determined and supported as required ....” In addition, Barrio’s policies limited
annual salary increases to 3 percent, based on merit. Its policies allowed higher increases based
on market surveys of salaries.

Barrio increased the salaries of the chief financial officer, chief operating officer, and chief
information officer by 34 percent, 16 percent, and 18 percent, respectively, in November 2008,
but did not have documentation, such as a market survey, to support the increases. Barrio used
the Federal HIT funds to pay $50,240 for the increases beginning in September 2009. As a
result, the salary increase may be unreasonable and should be refunded if Barrio cannot provide
sufficient documentation that would have justified the increase.




6
 Barrio’s accounting system had an account for each grant, including the section 330 and NAP grants. However,
Barrio recorded all expenses related to the grant in the account, and because the budget for those grants included
other funding sources, we could not reconcile a specific expense to its funding source.
                                                         5
Interest Paid for Furniture Lease Lacked the Required Cost Analysis

The cost principles at 2 CFR part 230, Appendix B, section 43.d, address the allowability of
costs incurred for capital leases of equipment: “Rental costs under leases which are required to
be treated as capital leases under GAAP are allowable only up to the amount … that would be
allowed had the non-profit organization purchased the property on the date the lease agreement
was executed.” Interest costs related to capital leases are allowable if certain specific criteria are
met, while the costs included in capital leases for profit, management fees, and taxes are not
allowable.

The cost principles require the use of Financial Accounting Standards Board Statement 13
(FAS 13), Accounting for Leases, to determine whether a lease is a capital lease. According to
FAS 13, paragraph 7.b., a capital lease includes a bargain purchase option. According to
FAS 13, paragraph 5(d), a bargain purchase option allows the grantee, at its option, to purchase
the leased property for a price that is sufficiently lower than the expected fair value of the
property at the date the option becomes available.

For capital lease interest costs to be allowable, they must meet certain criteria in 2 CFR part 230,
Appendix B, section 23: Interest, for example, may be allowable provided the nonprofit
performs a lease/purchase analysis (sections 23.a(2) and 23.a(5)), the interest rate is no higher
than a fair market rate from an unrelated (“arm’s length”) third party (section 23.a(3)),
investment earnings are used to offset allowable interest cost (section 23.a(4)), and interest is not
attributable to fully depreciated assets (section 23.a(6)(b)). Reimbursements for interest are
limited to the least costly alternative based on the lease/purchase analysis (section 23.a(5)). The
lease/purchase analysis should include a comparison of the projected total cost of leasing the
asset and the cost of purchasing it with financing for use during the same period. Finally,
grantee procurement procedure requirements at 45 CFR § 74.44(a)(2) require grantees to
establish written procedures for lease/purchase analyses.

Barrio leased furniture, including dental chairs, desk chairs, and desks. The capital lease
required Barrio to pay $64,853, which was described as the purchase cost, and $14,982 in
interest over the 5-year term and allowed Barrio to purchase the furniture for $1 at the end of the
lease, which was a bargain purchase. According to the chief financial officer, Barrio decided to
lease the furniture for “cash flow purposes.” During our review period, Barrio recorded $63,522
of furniture expense and $9,347 of interest expenses related to the NAP grant. Barrio failed to
perform the requisite lease/purchase cost analysis and to document that the interest was a fair
market rate and did not have policies and procedures requiring it to do so. As a result, Barrio’s
claim for $9,347 in interest on its capital lease was not an allowable expenditure of Federal
funds. However, because Barrio did not separately account for the use of its NAP grant in its
accounting system, we were unable to confirm which portion, if any, of these costs was funded
through the NAP grant and which portion was funded by other sources.




                                                  6
CASH MANAGEMENT PROCEDURES WERE INADEQUATE

Drawdown of Recovery Act Funds Not Based on Cash Requirements

Pursuant to 45 CFR § 74.22(b)(2), “… cash advances to a recipient organization shall be limited
to the minimum amounts needed and be timed to be in accordance with the actual, immediate
cash requirements of the recipient organization in carrying out the purpose of the approved
program or project.”

Barrio used organizationwide cash requirements rather than the requirements for each grant to
calculate the amount of funds to draw from the HHS Payment Management System. For
example, Barrio’s drawdowns for the IDS grant exceeded cumulative expenses by an average of
$224,115 per month for the 4-month period ended May 31, 2010. Barrio did not have policies
and procedures for drawing down funds based on cash requirements for individual grants.

Preparation and Review of Bank Statement Reconciliations Not Timely

Regulations (45 CFR § 74.21(b)) state: “Recipients’ financial management systems shall
provide for the following: .… (3) Effective control over and accountability for all funds,
property and other assets. Recipients shall adequately safeguard all such assets and assure they
are used solely for authorized purposes.” Bank statement reconciliations help provide effective
control over cash by identifying any differences between an entity’s bank statement and its
accounting records. Barrio’s policies and procedures state that “on a monthly basis the
Accounting Manager will prepare the bank statement reconciliations and submit them to the
CEO for approval.”

Barrio prepared reconciliations of its bank statements and accounting records an average of
2 months after the date of the statements. In addition, the chief executive officer reviewed the
statements an average of 6 months after the statement dates. This occurred because Barrio did
not follow its procedures to ensure that bank reconciliations were prepared and reviewed in a
timely manner. As a result, Barrio increased its risk of misusing grant funds.

PROCUREMENT PROCEDURES WERE INADEQUATE

Regulations (45 CFR § 74.45) state: “Some form of cost or price analysis shall be made and
documented in the procurement files in connection with every procurement action.” The
analysis can be based on price quotes, market prices, or similar documentation. Grantees must
have written procurement procedures that require an analysis of “lease and purchase alternatives
to determine which would be the most economical and practical procurement for the recipient
and the Federal Government” (45 CFR § 74.44(a)(2)).

Barrio did not perform a cost analysis for the following procurements:

    •   In October 2008, Barrio signed a 122-month lease agreement for a clinic in San Marcos,
        Texas. The total estimated cost of the lease payments was $897,543, of which Barrio
        claimed $244,666 of the NAP grant. According to the chief financial officer, Barrio
        provided information on the type of facility and preferred location to a real estate agent.
                                                 7
        The agent located a facility that Barrio found acceptable, but Barrio did not have
        documentation to show that the cost of the lease was reasonable.

    •   Barrio paid $5,824 for a contractor to fabricate and install cabinets for its leased facility
        in San Marcos, Texas.

    •   On behalf of South Texas Network, Inc., Barrio contracted with two consultants without
        making and documenting a cost analysis. One consultant was to provide evaluative
        services for a period of 2 years, from December 1, 2009, through November 30,
        2011. Barrio paid the consultant $18,213 for services provided through November
        2010. Barrio contracted with and paid the other consultant $4,998 to assist with strategic
        planning.

Barrio’s procedures did not require it to perform and document a cost analysis on items
purchased from the same vendor if previous experience with that vendor was
satisfactory. Barrio’s policies stated that it expected vendors to provide “products of adequate
quality at reasonable prices.”

RECOMMENDATIONS

We recommend that HRSA require Barrio to:

   •    refund $12,543,068 to the Federal Government for salary and salary-related expenses
        ($9,832,854 of the section 330 grant, $1,290,653 of the NAP grant, $735,382 of the IDS
        grant, and $684,179 of the two HIT grants), or work with Barrio to determine whether
        any of the $12,543,068 was allowable;

   •    refund $50,240 to the Federal Government for salary increases charged to one of the HIT
        grants, or work with Barrio to determine whether the increases were reasonable;

   •    refund $9,347 of the NAP grant to the Federal Government for interest expense related to
        a capital lease, or work with Barrio to determine whether any of the $9,347 was
        allowable;

   •    develop and implement procedures to maintain personnel activity reports for each
        employee who works on Federal awards;

   •    ensure that its financial system provides accurate, current, and complete disclosure of
        financial results, identifies the source and application of funds for HHS-sponsored
        activities, and accounts for grant funds separately from all other funds;

   •    develop and implement procedures requiring analysis of lease and purchase alternatives;

   •    develop and implement procedures to ensure that requests for cash advances are limited
        to the amounts needed to carry out approved projects;


                                                  8
   •   follow its policies to ensure that bank statement reconciliations are prepared and
       approved monthly; and

   •   develop and implement procedures to make and document a cost analysis for each
       procurement action.

BARRIO COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Barrio disagreed or partially disagreed with our
recommendations. Barrio’s comments are included as Appendix B. We did not include the
minutes of a board of directors’ meeting that Barrio included with its comments because they
contained personally identifiable information.

Insufficient Documentation of Salaries and Salary-Related Costs

Barrio Comments

Barrio disagreed with our recommendation to refund $12,543,068 to the Federal Government for
salary and salary-related expenses or to work with HRSA to determine whether any of the
$12,543,068 was allowable. Barrio stated that employee timesheets met the requirements of
2 CFR part 230, Appendix B, section 8.m(2)(a)-(d). Barrio also referred to 2 CFR part 230,
Appendix B, section 8.m.1, which states that the “[c]harges to awards for salaries and wages ...
will be based on documented payrolls approved by a responsible official(s) of the organization,”
and stated that it met those requirements. In addition, Barrio stated that our conclusion that it
allocated employee salaries based on budget estimates was incorrect. Barrio said that it used
Employee Status Change Forms, which showed the percentage of an employee’s work “that
should be charged to each grant,” and that the forms are updated if changes occur in the
employee’s work assignment or activities. Barrio also stated that clinicians and administrative
staff generally perform the same type of activities throughout the day and provided hypothetical
examples of when allocations would change.

Office of Inspector General Response

We disagree that Barrio employee timesheets met the requirements of 2 CFR part 230,
Appendix B, section 8.m(2)(a)-(d). The timesheets documented employee time worked but did
not provide an after-the-fact determination of employee activities. Barrio used the Employee
Status Change Forms, which showed allocations based on the percentage of employee work that
Barrio planned to charge to each grant, but Barrio did not have a follow-up procedure to verify
the accuracy of the allocations after completion of work.

Inadequate Financial Management System

Barrio Comments

Barrio disagreed with our recommendation to ensure that its financial system provides accurate,
current, and complete disclosure of financial results, identifies the source and application of
funds for HHS-sponsored activities, and accounts for grant funds separately from all other funds.
                                                9
Barrio stated that it had complied with applicable requirements by recording the costs associated
with the section 330 project and the NAP project in separate accounts from other grants. Barrio
stated that regulations cited in the draft report did not require separate accounting of
expenditures. Barrio’s interpretation of 42 CFR § 51c.112(a) was that a health center must
account for “expenditures made with Section 330 funds or with program income in a manner
acceptable to HRSA.” Barrio referenced HRSA Policy Information Notice 95-15, which Barrio
quoted as stating that “budgeted costs generally will not be specifically identified as being
covered by grant or non-grant funds ….” In addition, Barrio referred to 42 U.S.C.
§ 254b(e)(5)(D), which states that nongrant funds may be used to promote the project, if not
specifically prohibited.

Office of Inspector General Response

After reviewing Barrio’s comments, we maintain that the finding is valid. The grantee is
required to provide accurate, correct, and complete disclosure of financial results and records
that identify the source and application of funds for HHS-sponsored activities (i.e., expenditures
for section 330 and NAP grants should be segregated and accounted for separately from other
operational expenditures) (45 CFR § 74.21(b)(1) and (2) and 42 CFR § 51c.112(a)). The brief
quote from the HRSA Policy Information Notice 95-15 that Barrio mentions describes how
budgeted costs are identified and does not describe the accounting requirements for incurred
costs. In addition, 42 U.S.C. § 254b(e)(5)(D) identifies how nongrant funds may be used but
does not specify accounting requirements for the costs. Regulations require grantees to
separately account for expenditures for each funding source.

Insufficient Documentation To Justify Salary Increases

Barrio Comments

Barrio disagreed with our recommendation that it refund $50,240 to the Federal Government for
unreasonable salary increases charged to one of the HIT grants. Barrio stated that it complied
with policies it had at the time it increased the executive salaries and provided a salary schedule
that the board of directors approved in its November 13, 2008, meeting. Barrio said that it had
used salary surveys from the San Antonio area to establish the schedule and that it had used the
schedule to adjust the executive salaries. In addition, Barrio stated that the cost principles did
not require Barrio to maintain documentation of the salary surveys used for the schedule.

Office of Inspector General Response

We agree that Barrio may have followed its procedures in using a salary schedule approved by
the board of directors as a basis for salaries. However, the basis for the significant increase in
2008 remains unclear because Barrio did not document the methodology that it used to develop
the salary schedule. We did not base our finding solely on Barrio’s policies. We maintain that
the salary increase may be unreasonable and should be refunded if Barrio cannot provide
sufficient documentation that would have justified the increase. We revised the recommendation
to have Barrio work with HRSA to determine whether the increases were reasonable.



                                                10
Interest Paid for Furniture Lease Lacked the Required Cost Analysis

Barrio Comments

Barrio disagreed with our recommendation to refund $9,347 of the NAP grant to the Federal
Government for interest expense related to a capital lease or to work with HRSA to determine
whether any of the $9,347 was allowable. Specifically, Barrio said that the furniture lease did
not qualify as a capital lease because the furniture did not meet the definition of capital assets.
Barrio referenced the definition of capital assets in OMB Circular A-122, which is “an
acquisition cost which equals or exceeds the lesser of the capitalization level established by the
non-profit organization for financial statement purposes, or $5,000,” and further states that
Barrio’s policies do not designate a capitalization lower than $5,000. Barrio stated that its
arrangement did not qualify as a capital lease, and the requirements cited by OIG in 2 CFR
part 230, Appendix B, sections 23 and 43, did not apply.

Office of Inspector General Response

Regardless of whether the rented furniture is considered a supply or a capital asset, the interest
claimed as a result of the lease is unallowable. Interest generally is not an allowable
cost: “Costs incurred for interest on borrowed capital, temporary use of endowment funds, or the
use of the non-profit organization’s own funds, however represented, are unallowable” (2 CFR
part 230, Appendix B, section 23.a). The rules provide for a limited exception for interest
incurred on capital assets, a term that includes assets incurred through capital leases, if certain
terms are met (see also 2 CFR part 230, Appendix B, section 43.d). We concluded that the
auditee’s lease of furniture met the definition of a capital lease according to Financial
Accounting Standards Board Statement 13 and documents related to the lease transaction. The
documentation identified the furniture leased in total costs, with interest.

Contrary to Barrio’s assertion that it did not have policies that designated a capitalization level
lower than $5,000, policy number ACC803, with an effective date of January 2008, states: “Any
item with an original purchase price of $1,000 or more and a useful life of more than two years
shall be capitalized as a fixed asset. The capitalization threshold also applies to groups of related
items with a useful life of more than two years when the combined acquisition costs exceed
$500…. Fixed Assets are recorded into the fixed asset module of the Fundware Accounting
System.”

Although $21,105 of the individual items of furniture did not meet the $1,000 threshold Barrio
established for equipment capitalization, more than $43,000 did meet the threshold. In addition,
Barrio accounted for each piece of furniture by tagging the individual items and recording the
items in the fixed asset module of its accounting system. Furthermore, the grantee, in general
ledgers, grouped this expense under “Equipment: Off & Furn.,” and account detail reports listed
the expense as the “Baytree Capital Lease.” Although the lease of furniture may meet the
definition of a capital lease, the terms under which interest may be allowable were not met. As
discussed in the audit report, we determined that the grantee failed to follow the capital asset
terms set forth in the rules and thus failed to ensure that this interest might be allowed. Even if,



                                                 11
as the auditee says, this furniture is characterized as a supply, there is no basis for asserting that
the interest incurred in the rental of the furniture is an allowable cost. 7

Finally, even though the grantee budgeted for this equipment as supplies and used that portion of
its budget to cover the cost of the furniture, HRSA’s approval of the budget does not mean that
the cost of the interest incurred in the rental of the furniture is allowable. The Departmental
Appeals Board has held that an agency’s approval of an agreement to lease-purchase equipment
does not mean that all costs, specifically interest that is otherwise precluded by regulation, are
allowable. 8

Drawdown of Recovery Act Funds Not Based on Cash Requirements

Barrio Comments

Barrio partially concurred with our recommendation to develop and implement procedures to
ensure that requests for cash advances are limited to the amounts needed to carry out approved
projects. Barrio conceded that it had significant discrepancies between expenditures and
drawdowns during some months of our review, but it also stated that it had generally complied
with the requirement for cash advances. Barrio stated that it did not draw down a fixed
percentage of the total award each month and instead made draws based on actual cash needs of
the program.

Office of Inspector General Response

Barrio did not comply with the requirements and did not have procedures to draw down funds
based on the cash requirements for each grant, as required by 45 CFR § 74.22(b)(2).

Preparation and Review of Bank Statement Reconciliations Not Timely

Barrio Comments

Barrio partially concurred with our recommendation to follow its policies to ensure that bank
statement reconciliations are prepared and approved monthly. Barrio stated that its bank
reconciliation policy ensures that it maintains control and accountability. Barrio stated that the
policy requires preparation and submission of the reconciliations “on a monthly basis” but does
not require completion and review of the reconciliation in the same month the bank statement is
issued.

Office of Inspector General Response

We agree that Barrio had adequate policies to provide effective controls over cash. We also
agree that its policies did not require the reconciliation and review of the bank reconciliation to
be completed in the same month the bank issued the statement. However, the “monthly basis”
7
 See Marshalls Community Action Agency, DAB No. 328 (1982) (interest charges incurred on purchase of supplies
not allowable).
8
    See Washington Department of Social and Health Services, DAB No. 741 (1986).
                                                       12
requirement implies preparation and review within 1 month of the statement’s issuance, which
Barrio did not follow.

Procurement Procedures Were Inadequate

Barrio Comments

Barrio did not concur with our recommendations to develop and implement procedures to require
analysis of lease and purchase alternatives and to make and document a cost analysis for each
procurement action. Barrio stated that it had updated its purchasing policy in May 2012 and that
for purchases less than $10,000, the purchasing agent is authorized to use his or her best
judgment, based on several factors. In addition, Barrio indicated that it would work with HRSA
to refine the policy.

Office of Inspector General Response

We understand that the purchasing agent may use his or her best judgment when making
purchasing decisions, but Federal regulations require analysis of lease-versus-purchase options,
where appropriate, and documentation of cost and price analysis with every procurement action
(45 CFR §§ 74.44(a)(2) and 74.45).

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations. HRSA’s
comments are included in their entirety as Appendix C.




                                               13
APPENDIXES
APPENDIX A: GRANT AMOUNTS AND AMOUNTS REVIEWED, ALLOWABLE,
               AND POTENTIALLY UNALLOWABLE

                    Federal
                   Share of                                 Potentially
         Grant1     Award        Reviewed     Allowable    Unallowable
         CIP       $1,447,420    $1,447,420   $1,447,420              $0
         HIT        1,115,625     1,115,625      750,294        365,331
         HIT        2,909,072     1,584,038    1,214,950        369,088
         IDS          746,863       740,179        4,797        735,382
         NAP        1,300,000     1,300,000            0      1,300,000
         330        9,832,854     9,832,854            0      9,832,854
          Total   $17,351,834   $16,020,116   $3,417,461    $12,602,655
     1
      CIP = Capital Improvement Program, HIT = Health Information
     Technology Implementation, IDS = Increased Demand for Services,
     NAP = New Access Point, 330 = section 330.
                                                                                                            Page 1 of7

                                APPENDIX B: BARRIO COMMENTS 





FELDES~lAN                                                                                         EDWARDT. WATERS
T UCKER                                                                                              ewaters@ftlf.com
LEJFER
)<'I DELJ, LLP



                                                               March 1, 2013


                       BY EMAIL AND FEDERAL EXPRESS


                       Ms. Patricia Wheeler
                       Regional Inspector General for Audit Services
                       DHHS/Ofiice of Inspector General
                       Office of Audit Services, Region VI
                       1100 Commerce St., Rm. 632
                       Dallas, TX 75242

                              Re:    OIG Dratl Report# A-06-11-00067

                       Dear Ms. Wheeler:
                               We represent Barrio Comprehensive Family Health Care Center, Inc. dba
                       CommuniCare Health Centers ("CommuniCare") and are responding on its behalf to your
                       office's draft report, dated January 30,2013, entitled Barrio Comprehensive Family Health
                       Care Center, Inc., Did Not Always Follow Federal Regulations (the "Draft Report").
                               l.      Background
                               The grant funds that CommuniCare has received through the American Recovery and
                       Reinvestment Act ("ARRA") and the Affordable Care Act ("ACA") have resulted in dramatic
                       benefits for the patients the health center serves in San Antonio, San Marcos, and Kyle, Texas.
                       The ARRA and ACA grants have enabled CommuniCare to open new sites to serve uninsured,
                       underinsured, and indigent residents of San Marcos and Kyle; to expand dental services at the
                       Dr. Frank Bryant Health Center in San Antonio; and through the Southwest Texas Network
                       (STN), to support FQHCs in 16 Texas counties in implementing electronic health records and
                       electronic practice management. CommuniCare fully and satisfactorily carried out these
                       federally funded projects.
                               While CommuniCare welcomes the opportunity to work with its primary funding
                       agency, the Health Resources and Services Administration (HRSA), to resolve any questions
                       that HRSA may have about the use of grant funds, CommuniCare does not concur with the
                       majority of the recommendations in the Draft Report. Most significantly, CommuniCare
                       disagrees with OIG's recommendation that HRSA "require Barrio to ... refund $12,543,068 to
                       the Federal Government for salary and salary-related expenses ... or work with Barrio to
                       determine whether any of the $12,543,068 was allowable," on account ofOIG's conclusion that
                       CommuniCare did not sufficiently document salary costs. CommuniCare believes that this
1129 20th Street, NW   finding, as well as others discussed below, should be withdrawn.
4th Floor
Washington, DC 20036
tel 202.466.8960
fax 202.293 .8103
www.FTLF.com
                                                                                                     Page 2 of7


FELOES&IAN                                                                          CommuniCare Response to
T UCKER
LEIFER                                                                       OIG Draft Report# A-06-1 1-00067
FIDELL LLP                                                                                      March I, 2013
                                                                                                  Page 2 of7
                    II.     R esponses to OIG R ecommendations
             OIG Recommendation #1: OIG recommends that HRSA require CommuniCare to "refund
             $50,240 to the Federal Government for unallowable salary increases charged to one of the HIT
             grants and follow its policies to ensure that compensation does not exceed reasonable limits."
             Specifically, OIG finds that salary increases for CommuniCare's chief financial officer (CFO),
             chief operating officer (COO), and chief information officer (CIO) in November 2008 "did not
             conform to Barrio's established policy and were not adequately determined and supported."
             CommuniCare Response: CommuniCare does not concur with OIG's recommendation.
                     While CornrnuniCare will work with HRSA as needed to clarify its policies concerning
             compensation, it believes that the compensation ofthe three employees identified in the Draft
             Report, and the adjustments to their salaries in November 2008, fully complied with Office of
             Management and Budget ("OMB") Circular A-122. Specifically, per Appendix B, paragraph 8
             ofthe Circular, total compensation to each employee is allowable if the compensation (I)
             conforms to the organization's established policies; (2) is "reasonable" - i.e. , for an
             organization that is predominantly engaged in federally-sponsored activities, "comparable to
             that paid for similar work in the labor markets in which the organization competes"; and (3)
             does not fall within a category of unallowable costs listed in other paragraphs ofthe Circular.
             See OMB Cir. A-122 (2 C.F.R. Part 230), App. B, ~~ 8.b, 8.e. We address points (1) and (2)
             below. There is not, so far as we know, any suggestion that the salaries paid fell within a
             category ofunallowable costs.
                     With respect to (I), CommuniCare complied with the policies that were in effect at the
             time of the salary adjustment identified in the Draft Report. Specifically, in its November 13,
             2008 Board meeting, CommuniCare's Board approved a schedule of27 salary grades and pay
             ranges for each grade (the "Salary Schedule" ). See Attachment A, Salary Schedule and Board
             Mii:mtes approving same. Using that Salary Schedule (the CIO falls in Grade 18 and the CFO
             and COO in Grade 20), on November 17,2008, CommuniCare set the salaries for the three
             employees discussed in the Draft Report. These adjustments were properly documented in
             each employee's persotmel file through an " Employee Status Change Form," which recorded
             the salary adjustment and noted the reason for the adjustment (merit or market factors). The
             status change forms indicated that the November 2008 salary adjustments were based on
             market considerations (i.e. , to align the salary with the newly-approved range). The
             employees' personnel files also indicate that the adjustment brought each officer's salary only
             to the midpoint of the range for his grade.
                     As to (2), as noted above, the requirement in Circular A-122 is that salaries be
             reasonable in amount (essentially fair market value for the position in question). The main
             concern identified in the Draft Report appears to be that CommuniCare did not retain the back­
             up information used to set the salary ranges, not that the salaries paid were unreasonable. As to
             that statement, we would ask that your office consider the following information. First,
             CornrnuniCare reviewed available salary surveys for the San Antonio area in 2008 and used
             those surveys to establ ish the Salary Schedule that was subsequently approved by the Board
             (Attachment A). The sources used were Salary.com and RobertHalf.com. Second, while it is
             true that CommuniCare did not retain copies ofthe webpages that it used to set the Salary
             Schedule, there is no requirement in Circular A-122 to conduct salary surveys, much less to
             keep those surveys. Accordingly, since there is nothing to suggest that the salaries were, in
             fact, unrea<;onable, CommuniCare was in compliance with the compensation provisions of the
             Circular.
                                                                                                         Page 3 of7


Frn.DESMIIN                                                                            CommuniCare Response to
TUCK K R
LEIFER                                                                          OIG Draft Report# A-06-11-00067
FIOELL LLP                                                                                         March I, 2013
                                                                                                     Page3 of7
                      Finally, the Draft Report is largely premised on CommuniCare's policy that is entitled
              "Wage and Salary Administration." This policy was not in existence in November of2008
              when the salaries for the three employees were established, but was first adopted by
              CommuniCare in April of2009 and was subsequently revised in 2010 and 2013. Indisputably,
              relying on policies that did not exist at the time of the events in question to support an auclit
              finding about those events is simply wrong. Accordingly, this recommendation should be
              revised and , CommuniCare believes, withdrawn.
              OIG Recommendations #2 and #4: OIG made two related recommendations concerning
              documentation ofsalary expenses and allocation of salary expenses to grant awards.
              Specifically, OIG re<:ommended that HRSA require CommuniCare to:
                 • 	 "refund $12,543,068 to the Federal Government for salary and salary-related expenses
                     ($9,832,854 of the section 330 grant, $1,290,653 of the NAP grant, $735,832 ofthe IDS
                     grant, and $684,179 of the two HIT grants), or work with Barrio to determine whether
                     any ofthe $12,543,068 was allowable"; and
                 • 	 "develop and implement procedures to maintain personnel activity reports for each
                     employee who works on Federal awards."
              CommuniCare Response: Communi Care does not concur with these recommendations.
              CommuniCare contends that it has complied fully with federal requirements. CommuniCare
              employees' personnel activity reports ("timesheets") are prepared contemporaneously, contain
              the required approvals, and adequately document actual work activity. In addition, the
              timesheets, along with other records maintained in personnel files, ensure an accurate allocation
              of salaries to the relevant grants.
                     Personnel Activity Reports
                     To charge personnel costs to a federal grant, the grantee must have records satisfying
              four documentation standards found in OMB Circular A- 122. Specifically, timesheets must:
                      1. 	 reflect an after-the-fact determination of the actual activity of each employee;
                     2. 	 account for the total activity for which employees are compensated;
                     3. 	 be signed by the employee or by a supervisory official with first-hand knowledge of
                          the employee' s activities; and
                     4 . 	 be prepared at least monthly and coincide with pay periods.
              See OMB Cir. A-122, App. B, ~ 8.m.2(a)-(d).
                      CommuniCare uses the K.ronos timekeeping and payroll system. Per CommuniCare's
              documented policies, all employees record their time contemporaneously. Non-exempt
              employees clock in and out using a hand "punch" system, while exempt employees prepare
              timesheets, which they submit to their supervisors on a bi-weekly basis. In the case of both
              categories of employees, the supervisor reviews and authorizes the time entered. An electronic
              timesheet is not finalized until it reflects both employee and supervisor approval. By
              electronically signing the timesheet, the employee verifies that he or she has carried out job
              duties as described in the job description for the position. In addition, for clinicians, abundant
              data (for example, appointment logs and on-call schedules) document patient care services
              performed during the clinician's worked hours.
                      CommuniCare' s time and effort system thus satisfies the four numbered standards set
              forth above. CommuniCare disagrees with OIG's conclusion that the timesheets did not reflect
                                                                                                      Page 4 of7


FELDESMAN                                                                            CommuniCare Response to
T UCKER
L t;Jl'ER                                                                    OIG Draft Report # A-06-11-00067
FIDELL LLP                                                                                       March I, 2013
                                                                                                    Page 4 of7
             the employees' "actual activity." As noted above, the employee's job description and (in the
             case of clinicians) clinical records document actual work activities. Circular A-122 does not
             require that personnel activity reports include a textual description of work.
                     Allocation o(Salary to Grants
                     Circular A-122 requires that "[c]barges to awards for salaries and wages .. will be
             based on documented payrolls approved by a responsible official(s) of the organization." OMB
             Cir. A-122, App. B, ~ 8.m.l. CommuniCare's payroll procedures fully meet this requirement
             and also ensure that salaries are allocated appropriately among federal awards.
                     Under CommuniCare's policy entitled "Processing Bi-Weekly Payroll," after a
             supervisor finalizes a timesheet, the accountant reviews and verifies the hours worked, leave
             taken, etc. The accountant I payroll administrator signs off on the timesheet and adds the
             employee's information to the documented payroll for that biweekly period.
                     OIG's concern appears to be that in charging each grant for salary costs, ConununiCare
             does not use an allocation based on task descriptions in the timesheet. OTG asserted that
             Communi Care "allocated salaries for each grant in accordance with the percentage oftime
             budgeted for each employee in the grant applications."
                     OIG's conclusion is inaccurate. In allocating each employee's time to grant awards,
             CommuniCare uses "Employee Status Change Forms" maintained in the personnel file . These
             forms indicate any change in the full-time equivalency (FTE) percentage ofthe employee's
             work that should be charged to each grant. The forms are updated regularly. If a change in an
             employee's work assignment or activities after the start of a grant budget period alters the
             appropriate allocation of his or her salary among grants, the change is recorded on a new status
             form. Potential examples ofsuch updates are as follows:
                • 	 Under the increased Demand for Services (IDS) grant that HRSA awarded to
                    CommuniCare for the budget period March 27,2009 through March 26, 2011,
                    CommuniCare expanded oral health services in our Dr. Frank Bryant Health Center by
                    hiring new clinicians and support staff. Tf a dentist hired under the IDS grant were
                    transferred to another location, her FTE allocation would be removed entirely from the
                    IDS grant.
                • 	 A New Access Point (NAP) grant with budget period March 1, 2009 through February
                    28, 2011 supported the opening of a new site in San Marcos. If a clinician were
                    assigned to provide services on one day of the five-day work week at another site, the
                    clinician's FTE allocation under the NAP grant would be reduced accordingly.
                     In general, clinicians and administrative staff perform the same types ofactivities
             throughout the day - i.e., patient care services in the clinician's area ofspecialty, or support
             services. The allocation of wages and salaries to the respective J-IRSA grants is contingent on
             factors such as the service site or the general type of services provided, and not on any
             particular patient served or task performed. (Indeed, if specific information about patient
             services were required on the timesheet, it would likely violate health information privacy
             rules.) Events triggering a change in the grant allocation are captured on the status change
             form, and the allocation is not required to be based on a narrative in the timesheet.
                    Communi Care will work with HRSA to resolve any concerns about CommuniCare's
             time and effo rt reporting, but ComrnwliCare maintains that it fully complied with federal
             requirements in this area and asks that OIG withdraw its recommendations on this topic.
                                                                                                      Page 5 of7


FELDES~lAN                                                                           CommuniCare Response to
TUCKER
L SH'BH                                                                       OIG Draft Report# A-06-11-00067
FlDELLLl.P                                                                                       March I, 2013
                                                                                                   Page 5 of7
             OIG Rec ommend ations #3, #6, and #9: Three ofOIG's recommendations relate to
             CommuniCare's lease ofa facility tor its new San Marcos site and lease offurniture for that
             site. Specifically, OIG's draft report recommends that HRSA require CommuniCare to:
                 • 	 "refund $9,347 ofthe NAP grant to the Federal Government for interest expense related
                      to a capital lease, or work with Barrio to determine whether any of the $9,347 was
                      allowable";
                 • 	 "develop and implement procedures requiring analysis of lease and purchase 

                      alternatives"; and 

                 • 	 "develop and implement procedures to make and document a cost analysis for each
                      procurement action."
             CommuniCare Response: While CommuniCare will work with HRSA to make any needed
             improvements in its policies on Purchasing, Receiving Supplies and Equipment, and
             Competitive Bids, Communi Care believes that these policies comply fully with federal
             requirements, and therefore CommuniCare does not concur with the recommendations.
                      With respect to Recommendation #3, the acquisition offurniture for CommuniCare's
             San Marcos site, which OIG characterizes as a "capital lease," complied with the requirements
             ofOMB Circular A-122 and 45 C.F.R. Prut 74. In characterizing this transaction as
             unallowable, OIG cited inapplicable provisions of Circular A- 122. OTG concluded that the
             arrangement did not meet the requirements for capital leases under a bargain purchase option,
             but those rules apply only to leases of capital assets and equipment. See OMB Cir. A-122,    n
             23, 43. "Capital assets" are comprised ofequipment, buildings, and land, and "equipment" is
             "an article of non-expendable, tangible personal property having a useful life of more than one
             year and an acquisition cost which equals or exceeds the lesser of the capitalization level
             established by the non-profit organization for financial statement purposes, or $5000." OMB
             Cir. A-122, ,[1Jl5.a.l , 15.a.2; see also 45 C.F.R. § 74.2. "Equipment" is determined based on
             per-unit, not cumulative, cost. CommuniCare's policies do not designate a capitalization level
             lower than $5000.
                      The rules cited do not apply to this transaction because the furniture falls under the
             "supplies" category, not " capital assets" or "equipment." CommuniCare's budget justification
             for the NAP grant application listed, under "supplies," a cost item for "noncapitalized
             equipment for New Office set up and ongoing costs.. . No item is over $5,000."
                      With respect to Recommendations #6 and #9, CommuniCare's policy on Purchasing,
             most recently updated in May 2012, is intended to ensure that the health center procures
             equipment and supplies at the lowest possible price, also keeping in mind considerations of
             quality, timeliness, and service after sale. The policy establishes different rules for
             procurements above the simplified acquisition threshold of$1 00,000; items costing between
             $50,000 and $99,000; items costing between $10,000 and $49,999; and items costing Jess than
             $10,000. As to the latter, under the policy, the purchasing agent is authorized to use his or her
             best judgment, considering prior experience with the vendor, proposed quality, and price.
             CommuniCare would be glad to work with HRSA on any further needed refinements to the
             policy, such as adding a requirement that the purchasing agent analyze whether purchase or
             lease would be most economical or practical.
             OIG Recommendation #5: OIG recommends that HRSA requi re CommuniCare to "ensure
             that its financial system provides accurate, current, and complete disclosure offinancial results,
             identifies the source and application of funds lor HHS-sponsored activities, and accounts for
                                                                                                     Page 6 of7


FELDESMAN                                                                           CommuniCare Response to
TUCKER
Li!:ll'llH                                                                   OIG Draft Report # A-06-11-00067
l'IDELLLLP                                                                                       March I, 2013
                                                                                                    Page 6 of7
             grant funds separately from all other funds." In particular, OIG asserts, based on 42 C .F.R. §
             5lc.112(a), " the accounting records for the section 330 and NAP grants did not separate
             expenditures related to the Federal grants from other funding sources."
             CommuniCare Response: CommuniCare does not concur with this recommendation.
                     As OIG acknowledged, CommuniCare uses a separate account for each grant. OIG' s
             concern, apparently, is that CommuniCare does not maintain separate accounts for expenditures
             paid with grant funds and for expenditures paid with "other funding sources." Specifically, OIG
             stated: "Barrio recorded all expenses related to the grant in the account, and because the budget
             for those grants inclvded other funding sources, we could not reconcile a spe,cific expense to its
             funding source."
                     While it is not clear what the "other funding sources" are that are referred to in Draft
             Report, we assume that this term is a reference to program income such as Medicare and
             Medicaid payments received by CommuniCare in the course of operating within the scope of
             its HRSA-approved project. Under the Section 330 program, there are special rules governing
             the treatment of program income, which is referred to as "nongrant" revenue in the Public
             Health Service Act. 42 U.S.C. § 254b(e)(5)(D), Public Health Service Act§ 330(e)(5)(D).
             Simply stated, none of the regulations cited in the Draft Report would require separate
             accounting for expenditures paid out of a Section 330 grant and for expenditures paid out of
             program income generated by that grant.
                    Indeed, the Section 330 implementing regulation cited in the Draft Report in support of
             OIG's recommendation, in the sentence following that cited by OIG, provides:
                    With respect to each approved project, the grantee shall account for the sum
                    total ofall amounts paid as well as other funds and in-kind contributions by
                    presenting or otherwise making available evidence sati~factory to the
                    Secretary ofexpenditure for direct and indirect costs. ...
             42 C.F.R. § 51c.112(a) (emphasis added) . In short, this provision requires a health center to
             account for expenditures made with Section 330 funds or with program income in a manner
             acceptable to HRSA. In that regard, longstanding guidance from HRSA makes clear that there
             is no requirement ofthe type ofseparate accounting ofexpenditures that is asserted in the Draft
             Report, For example, HRSA Policy Information Notice ("PIN") 95-15 (Feb. 28, 1995) states
             that "budgeted costs generally will not be specifically identified as being covered by grant or
             non-grant funds ...."
                     By recording the costs associated with the Section 330 project and the NAP project in
             separate accounts from other grants, and by comparing with those costs, in each respective
             account, the "sum total" ofgrant funds and program income for the Section 330 operating grant
             or NAP grant, CommuniCare fully complied with the applicable requi rements.
                   In light of these authorities, CommuniCare requests that OIG withdraw
             recommendation #5.
             OIG Recommendation #7: OIG recommends that HRSA require CommuniCare to "develop
             and implement procedures to ensure that requests for cash advances are limited to the amounts
             needed to carry out approved projects."
             CommuniCare R esponse: CommuniCare concurs in part with this recommendation.
                  Rather than drawing down a fixed percentage ofthe total award each month,
             CommuniCare makes draws based on actual cash needs of the program. In general,
                                                                                                        Page 7 of7



FEI.OESMAN                                                                            CommuniCare Response to
T!:CKER                                                                         OIG Draft Report# A-06-11-00067
LEIFER
FIDF.l, l, LLI'                                                                                    March I, 2013
                                                                                                     Page 7 of7
                  CommuniCare therefore believes that it has complied with the requirement under the
                  regulations that "cash advances ... be limited to the minimum amounts needed and be timed to
                  be in accordance with the actual, immediate cash requirements" ofthe grantee. 45 C.F.R. §
                  74.22.
                          However, CommuniCare concedes that in some months during the OIG's review
                  period, there were significant discrepancies between draws and expenditures. CommuniCare
                  will work with HRSA as necessary to ensure it is complying with relevant federal
                  requirements, and CommuniCare will implement a formal policy on cash advances.
                  OIG Recommendation #8: OIG recommends that HRSA require CommuniCare to "follow its
                  policies to ensure that bank statement reconciliations are prepared and approved monthly." In
                  support of this contention, OIG notes that CommuniCare prepared reconciliations "an average
                  of2 months after the date ofthe statements," and that the CEO reviewed the statements "an
                  average of 6 months after the statement dates."
                  CommuniCare Response: CommuniCare concurs in part with this recommendation.
                          CommuniCare agrees that promptly reviewing bank statements and reconciling them
                  with accounting records is a component of"effective control over and accountability for all
                  funds, property, and other assets." 45 C.F.R. § 74.2l(b)(3). CommuniCare's documented bank
                  reconciliation policy ensures that the health center maintains control and accountability. The
                  policy requires that the accounting manager prepare bank statement reconciliations and submit
                  them to the CEO "on a monthly basis." The policy does not require that the reconciliation be
                  completed in the same month that the bank statement is issued, or that the CEO complete his
                  review in that same month.
                          Again, CommuniCare appreciates the opportunity to comment on OIG's draft audit
                  findings. Please let me know if you have further questions or need additional information.




                                                                  il!~Edward T. Waters



                  cc: Paul M. Nguyen, Chief Executive Officer


                  Enclosure
                                                                                                              Page 1 of 4

                    APPENDIX C: HEALTH RESOURCES AND SERVICES 

                           ADMINISTRATION COMMENTS 




('"~           DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                       Healt h Resources and Services
                                                                                       A dm inist ration

   ~~
"b... ...
                                                                                       Rockville M D 20857



                                                     .'' ''1 2 6   ~::113




            TO: 	          Inspector General

            FROM: 	        Administrator

            SUBJECT: 	OIG Draft Report: "Barrio Comprehensive Family Health Care Center, Inc., Did
                      Not Always Follow Federal Regulations" (A-06-11-00067)

            Attached is the Health Resources and Services Administration' s (HRSA) response to the OIG's
            draft report, "Barrio Comprehensive Family Health Care Center, Inc., Did Not Always f o llow
            Federal Regulations" (A-06-11 -00067). If you have any questions, please contact Sandy Seaton
            in HRSA' s Office of Federal Assistance Management at (301) 443-2432.



                                                     ~~Jr/f-~
                                                       Mary K . Wakefield , Ph.D., R.N. 


            Attachment 

                                                                                                   Page 2 of 4




 Health Resources and Services Administration's Comments on the OIG Draft Report­
"Barrio Comprehensive Family Health Care Center, Inc., Did Not Always Follow Federal
                            Regulations" (A-06-11-00067)

The Health Resources and Services Administration (HRSA) appreciates the opportunity to
respond to the above draft report. HRSA's response to the Office of Inspector General (OIG)
draft recommendations are as follows :

OIG Recommendation to HRSA:

We recommend that HRSA require Barrio Comprehensive Family Health Care Center, Inc.,
(Barrio) to refund $ 12,543,068 to the Federal Government for salary and salary-related expenses
($9,832,854 of the section 330 grant, $1,290,653 of the NAP grant, $735,382 of the IDS grant,
and $684,179 of the two HIT grants), or work with Barrio to determine whether any of the
$12,543,068 was allowable.

HRSA Response:

HRSA concurs with the OIG recommendation and will work with Barrio to determine which
salary and salary-related expenses charged against the HRSA grants were allowable.

OIG Recommendation to HRSA:

We recommend that HRSA require Barrio to refund $50,240 to the Federal Government for
salary increases charged to one of the HIT grants, or work w ith Barrio to determine whether the
increases were reasonable.

HRSA Response:

HRSA concurs with the OIG recommendation and will work with Barrio to determine if the
salary increases charged to one of the HIT grants were reasonable.

OIG Recommendation to HRSA:

We recommend that HRSA require Barrio to refund $9,347 of the NAP grant to the Federal
Government for interest expense related to a capital lease, or work with Barrio to determine
whether any of the $9,347 was allowable.

HRSA Response:

HRSA concurs with the OIG recommendation and will work with Barrio to determine if the
interest expense related to a capital lease charged to the NAP grant was allowable.
                                                                                                    Page 3 of 4




OIG Recommendation to HRSA:

We recommend that HRSA require Barrio to develop and implement procedures to maintain
personnel activity reports for each employee who works on Federal awards.

HRSA Response:

HRSA concurs with the OIG recommendation and will ensure that Barrio develops and
implements procedures to maintain personnel activity reports for each employee who works on
federal awards.

OIG Recommendation to HRSA:

We recommend that HRSA require Barrio to ensure that its financial system provides accurate,
current, and complete disclosure offinancial results, identifies the source and application of
funds for HHS-sponsored activities, and accounts for grant funds separately from all other funds.

HRSA Response:

HRSA concurs with the OIG recommendation and will ensure that Barrio maintains a financial
system that provides precise, up-to-date, comprehensive disclosure of financial results, can
identify the source and application of funds for HHS-sponsored activities, and accounts for grant
funds separately from all other funds.

OIG Recommendation to HRSA:

We recommend that HRSA require Barrio to develop and implement procedures requiring
analysis oflease and purchase alternatives.

HRSA Response:

HRSA concurs with the OIG recommendation and will ensure that Barrio develops and
implements procedures requiring analysis oflease and purchase alternatives.

OIG Recommendation to URSA:

We recommend that HRSA require Barrio to develop and implement procedures to ensure that
requests for cash advances are limited to the amounts needed to carry out approved projects.

HRSA Response:

HRSA concurs with the OIG recommendation and will ensure that Barrio develops and
implements procedures to make certain that requests for cash advances are limited to the
amounts needed to carry out approved projects.
                                                                                              Page 4 of 4




OIG Recommendation to URSA:

We recommend that HRSA require Barrio to follow its policies to ensure that bank statement
reconciliations are prepared and approved monthly.

HRSA Response:

HRSA concms with the OIG recommendation and will ensure that Barrio follows its policies to
ensure that bank statement reconciliations are prepared and approved monthly.

OIG Recommendation to URSA:

We recommend that I lRSA require Barrio to develop and implement procedures to make and
document a cost analysis for each procurement action.

HRSA Response:

HRSA concms with the OIG recommendation and will ensmc that Barrio develops and
implements procedures to make and document a cost analysis for each procurement action.
